July 23, 2009

DAVID E. WILLIAMS
ACTING VICE PRESIDENT, ENGINEERING

SUBJECT: Audit Report – Delivery Bar Code Sorter Maintenance Opportunities
         (Report Number DA-AR-09-009)

This report presents the results of our self-initiated audit of Delivery Bar Code Sorter
(DBCS) maintenance opportunities (Project Number 09YG022DA000). Our objective
was to identify opportunities to reduce preventive maintenance workhours through the
U.S. Postal Service’s DBCS production based maintenance (PBM) program. PBM
utilizes mailpiece throughput to align the timing and extent of preventive maintenance
performed with wear and tear on the machine. The Postal Service issued PBM
guidelines in August 2007 and May 2008 for its DBCS. Engineering establishes
equipment maintenance policies and Postal Service area. Operations personnel are
responsible for implementing them at their respective sites nationwide. See Appendix A
for additional information on this audit.

Conclusion

Compliance with DBCS PBM Guidelines

Approximately 84 percent of Postal Service facilities nationwide equipped with DBCS
are performing PBM, which requires that preventive maintenance be aligned with
throughput on a daily basis. Other facilities cited they have not implemented PBM
guidelines because the Electronic Maintenance Activity Reporting and Scheduling
(eMars) system is not capable of automatically generating production-based checklists
that facilitate daily maintenance routines. In addition, survey responses from sites that
did not implement PBM indicate these facilities do not understand the interim process
established to support PBM.

As a result, the Postal Service incurred excessive maintenance costs of $8.2 million for
fiscal year (FY) 2008. Furthermore, not fully implementing PBM guidelines will cost the
Postal Service $69.5 million over the next 10 years. We recognize postal management
is piloting a solution to automate PBM activities that will require capital funding. See
Appendix B for our detailed analysis of this issue.
Delivery Bar Code Sorter Maintenance Opportunities                     DA-AR-09-009



We recommend the Vice President, Engineering:

 1. Emphasize to the Area Vice Presidents adherence to the Maintenance
    Management Order requirements for production-based maintenance until an
    automated support solution is available.

 2. Request priority funding for a system support solution for production-based
    maintenance.

Management’s Comments

Management agreed with recommendations 1 and 2, stating they will issue a policy
letter to the Area Vice Presidents requesting adherence to the Maintenance
Management order requirements for PBM by August 9, 2009. They also agreed to
request priority funding upon completion and validation of the proposed system support
solution to automate PBM activities. Management agreed in principle with the monetary
impact; however, management requested the salary rate reflected in the monetary
impact be more specific. As such, we re-calculated the monetary impact to a weighted
average for the three levels of maintenance employees performing the work and their
associated pay rates. We also escalated these labor rates accordingly. See Appendix
D for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector (OIG) considers management’s comments
responsive to the recommendations and corrective actions should correct the issues
identified in the report.

The OIG considers both recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service follow-up tracking system until the OIG provides written confirmation that
the recommendations can be closed.

We will report $8.2 million as unrecoverable questioned costs, and $69.5 million as
funds put to better use in our Semiannual Report to Congress.




                                                     2
Delivery Bar Code Sorter Maintenance Opportunities                  DA-AR-09-009



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Wayne D. Sharpe, Acting
Director, Engineering, or me at (703) 248-2100.

    E-Signed by Miguel Castillo
 VERIFY authenticity with ApproveIt




Miguel A. Castillo
Acting Deputy Assistant Inspector General
 For Support Operations

Attachments

cc: William Galligan
    Edward L. Gamache
    Katherine S. Banks




                                                     3
Delivery Bar Code Sorter Maintenance Opportunities                                        DA-AR-09-009



                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Preventive maintenance is the scheduled, systematic servicing of equipment to
maximize operating conditions. Historically, preventive maintenance needs were
determined by machine run time. In August 2007 and May 2008, preventive
maintenance guidelines based on pieces fed per production run for the DBCS were
issued. PBM was developed to measure throughput of mailpieces to align the timing
and extent of preventive maintenance performed with wear and tear on the machine.
Because throughput of mailpieces wear parts, PBM more accurately reflects when
preventive maintenance should be performed and is based on having maintenance fit
the needs of the machine. PBM results in more efficient use of maintenance hours,
which makes more hours available for proactive maintenance and to supplement hours
needed for other equipment.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to identify opportunities to reduce preventive maintenance workhours
through the Postal Service’s PBM program.

The scope of our audit was limited to the PBM program for the DBCS. To accomplish
the objective, we collected FY 2008 daily preventive maintenance workhours for 2,754
DBCS machines running major modes1 located at 334 facilities. We calculated the
potential savings by comparing the above daily preventive maintenance workhours with
the calculated production-based maintenance workhours, which are based on machine
throughput. The preventive hours used in our analysis were collected from the eMARS
system and pieces fed were collected from the Enterprise Data Warehouse/End of Run
Report system. After performing initial calculations of potential savings, we verified our
methodology with the Maintenance Technical Support Center. We also electronically
surveyed maintenance managers2 to determine whether field maintenance managers
had implemented PBM, and if not, why it had not been implemented.

We conducted this performance audit from February through July 2009 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides reasonable basis for our
findings and conclusions based on our audit objective. We reviewed policies and



1
  Major modes analyzed are DBCS, output subsystem, and delivery input output subsystem.
2
  We sent a total of 372 electronic surveys to maintenance managers nationwide, from which we received 130
responses.




                                                        4
Delivery Bar Code Sorter Maintenance Opportunities                                    DA-AR-09-009



procedures for internal controls and discussed our observations and conclusions with
management on May 28, 2009, and included their comments where appropriate.

We relied on Management Operating Data System (MODS) End of Run reports. We did
not test the validity of controls over this system. We determined valid controls are in
place, and the data was reliable based on a prior OIG audit report stating MODS
internal controls were generally effective and MODS data was generally reliable.3

PRIOR AUDIT COVERAGE

The OIG issued, Equipment Maintenance Opportunities (Report Number DA-AR-08-02,
dated February 15, 2008). The report disclosed that facilities equipped with the
Automated Facer Canceller System (AFCS) did not implement PBM guidelines. As a
result, the Postal Service incurred excessive maintenance costs of $11.6 million for the
year ending December 21, 2007. In addition, successful implementation of the tested
PBM guidelines would avoid cost of $130 million over the next 10 years through attrition
and overtime.




3
    Management Operating Data System (Report Number MS-AR-07-003, dated August 21, 2007).




                                                      5
Delivery Bar Code Sorter Maintenance Opportunities                                       DA-AR-09-009



                               APPENDIX B: DETAILED ANALYSIS

Compliance with DBCS PBM Guidelines

Approximately 84 percent of Postal Service facilities nationwide equipped with DBCS
are performing PBM, which requires that preventive maintenance be aligned with
throughput on a daily basis. Nationwide data analysis of preventive maintenance
workhour usage for the facilities that did not implement PBM revealed excessive
maintenance workhours when compared to the calculated PBM workhours.
Specifically, excessive workhours totaled 176,572 for the 1-year period following
issuance of the PBM maintenance management order. The chart below categorizes
these workhours by Postal Service area.
 
Chart 1- Excessive DBCS Maintenance Workhours by Postal Service Area
 
                                                                              Excess
                   Postal Service        Number of          Number of        Preventive
                       Area              Machines           Facilities      Maintenance
                                                                            Workhours
                 Capital Metro                     69                8              8,451
                 Eastern                          118               12             21,416
                 Great Lakes                      100               16             24,993
                 New York Metro                    48               11             19,842
                 Northeast                         75               11             14,459
                 Pacific                           76               11             19,758
                 Southeast                        113               11             15,379
                 Southwest                         97               12              8,409
                 Western                          179               28             43,866
                 Total                            875              120            176,572

We surveyed and interviewed Postal Service maintenance managers at 130 facilities to
determine the reasons PBM was not implemented. The primary reason cited was that
eMARS does not automatically generate production-based checklists facilitating daily
maintenance routines4. In addition, some facilities did not understand the interim
manual process established until an automated eMARS support function is available.

For FY 2008, Postal Service facilities that did not implement PBM exceeded maximum
hours allowable for preventive maintenance by 176,572 hours at a cost of $8.2 million.
In addition, we estimate the cost of excessive preventive maintenance for DBCS
machines over the next 10 years to be $69.5 million. As such, we are reporting
$8.2 million as unrecoverable questioned costs, and $69.5 million as funds put to better
use in our Semiannual Report to Congress. See Appendix C for our detailed
calculations.

4
  Although eMARS does not support PBM, PBM checklists can still be generated. As indicated by MMO-064-06,
DBCS throughput data used to generate the production-based checklists can be obtained from available End-of-Run
reports, which contain the same data as eMARS.




                                                        6
Delivery Bar Code Sorter Maintenance Opportunities                      DA-AR-09-009



Corrective Action Initiated by Postal Management to Obtain Support System

The Postal Service manager for maintenance policies recognized PBM system
shortfalls and initiated a pilot at two processing sites to test automated maintenance
routines. This pilot will provide an enhanced support system for automating PBM with
paperless instruction tasks triggered by specific machine throughput levels. This results
in streamlining and eliminating redundant preventive maintenance processes thereby
facilitating the scheduling of the appropriate level of maintenance workhours. An
Integrated Technical Plan has been submitted for approval for the development of
Electronic Conditional Based Maintenance (ECBM) system at an estimated cost of $22
million.

We recognize that the Postal Service has a freeze on capital projects and prioritizes its
annual cash flow. However, projects such as ECBM, with low risk, high return, and
short payback period should qualify for an exception. We consider ECBM low risk as a
pilot project is in progress. In addition, the estimated savings substantially exceeds the
estimated cost and the payback period is relatively short when benefits from other
processing platforms, such as the AFCS is considered.




                                                     7
Delivery Bar Code Sorter Maintenance Opportunities                                             DA-AR-09-009



                                  APPENDIX C:
              CALCULATION OF UNRECOVERABLE QUESTIONED COSTS AND
                            FUNDS PUT TO BETTER USE

                                                 Monetary Impact
                                    Unrecoverable Questioned Costs5
                                                Percent of       Excess PM          Excess PM Hours
                      Labor rates 2008:         PM Hours         Hours              Cost
                  PS-10 ET         $49.85            10%             17,657                  $880,212
                  PS-9 MPE         $48.29            36%             63,566                $3,069,602
                  PS-7 MM          $44.15            54%             95,349                $4,209,658
                  Questioned Cost                                                          $8,159,472
                                           Funds Put to Better Use6
                  10 Years Cost of ET, MPE and MM
                  Position                                                                $84,615,405
                  Discount Rate                                                                   3.5%
                  Labor escalation rate                                                           1.3%
                  Present Value 10 Years Cost of ET
                  Positions                                                               $69,538,189
                  Total Monetary Impact (Questioned Costs plus Funds
                  Put to Better Use)                                                      $77,697,661

Notes

       •   Labor rates were based on the Postal Service’s FY 2008 fully loaded published
           rate for Electronic Technician (ET).

       •   Funds Put to Better Use is the present value of excessive preventive
           maintenance cost over the next 10 years. The labor escalation rate and discount
           rate were obtained from the Postal Service’s Decision Analysis Factors published
           on May 28, 2009.




5
    Unrecoverable costs that are unnecessary, unreasonable or an alleged violation of law or regulation.
6
    Funds that could be used more efficiently by implementing recommended actions.




                                                             8
Delivery Bar Code Sorter Maintenance Opportunities        DA-AR-09-009



                           APPENDIX D: MANAGEMENT’S COMMENTS




                                                     9
Delivery Bar Code Sorter Maintenance Opportunities        DA-AR-09-009




                                                     10
